<html>
<title> - CONFIRMATION HEARING ON THE NOMINATIONS OF JAY B. STEPHENS TO BE ASSOCIATE ATTORNEY GENERAL AND BENIGNO G. REYNA TO BE DIRECTOR OF THE U.S. MARSHALS SERVICE</title>
<body><pre>[Senate Hearing 107-603]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-603
 
   CONFIRMATION HEARING ON THE NOMINATIONS OF JAY B. STEPHENS TO BE 
 ASSOCIATE ATTORNEY GENERAL AND BENIGNO G. REYNA TO BE DIRECTOR OF THE 
                         U.S. MARSHALS SERVICE
=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 20, 2001

                               __________

                          Serial No. J-107-39

                               __________

         Printed for the use of the Committee on the Judiciary




                        U.S. GOVERNMENT PRINTING OFFICE
81-139                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ORRIN G. HATCH, Utah
JOSEPH R. BIDEN, Jr., Delaware       STROM THURMOND, South Carolina
HERBERT KOHL, Wisconsin              CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ARLEN SPECTER, Pennsylvania
RUSSELL D. FEINGOLD, Wisconsin       JON KYL, Arizona
CHARLES E. SCHUMER, New York         MIKE DeWINE, Ohio
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
MARIA CANTWELL, Washington           SAM BROWNBACK, Kansas
JOHN EDWARDS, North Carolina         MITCH McCONNELL, Kentucky
       Bruce A. Cohen, Majority Chief Counsel and Staff Director
                  Sharon Prost, Minority Chief Counsel
                Makan Delrahim, Minority Staff Director




                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois.......................................................     1
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......     3
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.    40
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................     5

                       STATEMENTS OF THE NOMINEES

Reyna, Benigno G., Nominee to be Director of the U.S. Marshals 
  Service........................................................     7
    Questionnaire................................................    10
Stephens, Jay B., Nominee to be Associate Attorney General.......    43
    Questionnaire................................................    50

                       SUBMISSIONS FOR THE RECORD

Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa, 
  statement in support of Jay B. Stephens, Nominee to be 
  Associate Attorney General.....................................     7
Warner, Hon. John W., a U.S. Senator from the State of Virginia, 
  statement in support of Jay B. Stephens, Nominee to be 
  Associate Attorney General.....................................     6



   CONFIRMATION HEARING ON THE NOMINATIONS OF JAY B. STEPHENS TO BE 
 ASSOCIATE ATTORNEY GENERAL AND BENIGNO G. REYNA TO BE DIRECTOR OF THE 
                         U.S. MARSHALS SERVICE

                              ----------                              


                      THURSDAY, SEPTEMBER 20, 2001

                              United States Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:35 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Richard J. 
Durbin presiding.
    Present: Senators Durbin, Leahy, Hatch, and Specter.

 STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR FROM THE 
                       STATE OF ILLINOIS

    Senator Durbin. The committee will come to order.
    Chairman Leahy has called today's hearing on an expedited 
basis for nominations received recently from the 
administration. Given the terrible events of the last week, it 
is important that we move forward with the nominations of two 
critical appointments that we have before us today: the 
President's choices to head the U.S. Marshals Service and to 
serve as the third highest-ranking official at the Department 
of Justice, the Associate Attorney General.
    Last Thursday, the committee considered the nomination of 
John Gillis, to head the Justice Department's Office for 
Victims of Crime, as well as a dozen United States Attorneys 
whose paperwork we expedited. The Senate confirmed them all 
last week, along with another nominee from Texas to head the 
Bureau of Justice Assistance within the Department.
    I am proud of the way that this committee and the Senate 
have responded to the circumstances facing our Nation and the 
support we have been able to provide to the administration at 
this difficult time. This hearing tries to continue that 
effort.
    I welcome our nominees and thank them for their 
cooperation. I especially want to thank Chief Reyna, who flew 
here on short notice from Texas. Chief Reyna is the President's 
nominee to direct a crucial component of our Federal law 
enforcement network, the United States Marshals Service.
    The Service was created more than 200 years ago by the 
first Congress in the Judiciary Act of 1789, the same 
legislation that established the Federal judicial system. Our 
Marshals and Deputy Marshals support and protect the Federal 
courts around America. They also track fugitives, transport 
Federal prisoners, and maintain seized assets. In the last 10 
days, the U.S. Marshals Service has played a pivotal role in 
the largest criminal investigation in our Nation's history. I 
commend the 4,000 Deputy Marshals across the Nation, along with 
the Acting Director of the Service, Louie T. McKinney, and all 
of the Acting U.S. Marshals for their continuing dedication and 
sacrifice.
    Since 1976, Chief Benigno Reyna has worked for and headed 
the police department of Brownsville, Texas, where he served as 
chief from 1995 until his retirement this past May. During his 
tenure at the department, he participated in a remarkable 
collaboration between the Brownsville community and the 
adjacent city of Matamoros, located across the Mexican border. 
The two communities have worked together to establish policies 
on cross-border arrests and the extradition of minors to their 
home country of Mexico or the United States.
    Because of Brownsville's unique geographical location at 
the U.S. border, there is considerable interaction between the 
Brownsville police and Federal law enforcement agencies, such 
as the DEA, the FBI, and the Border Patrol. In December 1999, 
the Brownsville Police Department became the third site in the 
United States to implement a multi-agency wireless radio 
interoperability communications system. This system allows for 
field unit-to-unit communications between Brownsville police 
and Federal law enforcement agencies. I am sure that Chief 
Reyna will discuss the success of this program.
    The second nominee this morning is Jay Stephens to serve at 
the Department of Justice, who will serve beneath the U.S. 
Attorney General and Deputy Attorney General. Before joining 
the private sector in 1992, Mr. Stephens served as a Federal 
prosecutor, a deputy counsel to President Reagan, and a top 
aide in the Justice Department under both Deputy Attorney 
General and Associate Attorney General. From 1988 to 1993, the 
nominee was U.S. Attorney for the District of Columbia, 
managing the largest U.S. Attorney's office in the country.
    The position of Associate Attorney General has always been 
important, and it is especially important today. Among the many 
duties of the Associate Attorney General are oversight 
responsibility for the Civil Rights Division and the Office of 
Justice Programs, which include the Office for Victims of Crime 
and our Federal assistance programs to policemen, firemen, and 
other public safety officers.
    In response to the devastation we witnessed as a Nation on 
September 11, the Office for Victims of Crime is assisting many 
victims and their families. The resources for our victims 
assistance and counseling programs, as well as the Federal 
contribution to State and national assistance and compensation 
programs, are essential.
    The Civil Rights Division, which plays an important role in 
the lives of all Americans, will have a special role in helping 
the FBI and local authorities ensure the rights of Arab 
Americans and individuals of the Muslim faith in these tense 
times. It bears repeating, as the President has spoken to us, 
that no one should become a target of hate or discrimination 
because of their religion, nationality, or ethnic background.
    The Office of the Associate Attorney General also has 
responsibility for the Antitrust Division, the Civil Division, 
the Tax Division, and the Environment and Natural Resources 
Division. The next Associate Attorney General will have to make 
a number of difficult decisions that require the full 
confidence and trust of Congress and the American people.
    That person will also oversee the Department's efforts to 
seek reimbursement from the tobacco industry for billions of 
dollars of health-related expenses shouldered by American 
taxpayers and families. The Associate Attorney General will 
help to prosecute the Government's antitrust lawsuits as well. 
He will bear responsibility for protecting our citizens from 
environmental harm--a substantial responsibility.
    Before calling the two witnesses to the table, I would like 
to invite my colleagues, Senator Hatch and Senator Specter, to 
make their opening remarks.

STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM THE STATE 
                            OF UTAH

    Senator Hatch. Thank you, Mr. Chairman. It is both an honor 
and a pleasure to welcome both of these two excellent people to 
our committee. Both have excellent experience that is very, 
very much appreciated by myself and other members of the 
committee. Both are good men, backed by good women, and both 
have the experience to be able to do these two jobs in ways 
that will make America proud.
    I have an awful lot of kind remarks to say about both of 
you, but I think I would just put those in the record at this 
particular point and thank you both for your willingness to 
serve. In this day and age, it is not always easy to find the 
best people to come in and serve, but I think this 
administration has been doing a very good job of doing that, 
and I commend all of those who are willing to take cuts in pay 
and to do the work of the public in public serve that both of 
you are now going to be able to do. We hope that we can get 
your confirmations through rather quickly so that you can both 
take your places in these very, very important jobs.
    Mr. Reyna, this job you have is an extremely important one. 
I have worked rather closely with the U.S. Marshals Service 
over the years and appreciate the heroic work that most all of 
them do. You come very highly recommended and you will have a 
great friend in me, and I think others on this committee.
    Jay Stephens, I have known you for a long time. You have 
been a person of utmost integrity and ability, and I personally 
am just very pleased that you have been willing to come out of 
the private sector, where I know you are compensated much more 
handsomely, to work for the public in one of the most important 
jobs in Justice and the world. We appreciate your wife and your 
children, and, Mr. Reyna, your wife and family for being 
willing to make the sacrifices that are necessary for you to do 
these jobs in a way that will bring credit not only to you but 
to our country and your families.
    So I just want to thank both of you for being willing to 
serve, and I will put my further remarks about your sterling 
accomplishments and abilities into the record at this point.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Hatch follows:]

Statement of Hon. Orrin G. Hatch, a U.S. Senator from the State of Utah 
on the Nominations of Jay B. Stephens to be Associate Attorney General 
   and Benigno G. Reyna to be Director of the United States Marshals 
                                Service

    It is both an honor and a pleasure to be here this morning with two 
extremely well-qualified nominees for important positions in the 
Department of Justice. I congratulate the two of you on being selected 
by President Bush to serve in high office. And I know that, due tot he 
events of last week, the Department needs your service more than ever. 
You will begin your jobs during a time of great need for diligent hard 
work. After reviewing your distinguished records, I have no doubt that 
you will do great service to the citizens of this country upon 
confirmation.
    Our nominee for the position of Associate Attorney General is Jay 
Stephens. This position is critical to the operation of the Justice 
Department. Its responsibilities include not only advising the Attorney 
General and Deputy Attorney General on broad range of issues, but also 
supervising many important components of the Department, including the 
Antitrust, Civil, Civil Rights, Tax, and Environmental and Natural 
Resources Divisions.
    Mr. Stephens is no stranger to DOJ, having first worked there in 
1974 as an Assistant Special Prosecutor for the Watergate Special 
Prosecution Force. He subsequently served as an Assistant U.S. Attorney 
in the D.C. U.S. Attorney's Office, then in a number of leadership 
positions at DOJ during the Reagan Administration. In 1988, he returned 
to the D.C. U.S. Attorney's Office to assume the top job of United 
States Attorney during the Bush Administration.
    But Mr. Stephens's impressive legal experience is not limited to 
DOJ. He was a partner at Pillsbury, Madison & Sutro (now Pillsbury 
Winthrop), one of the nation's preeminent law firms. At present, his 
legal talent benefits Honeywell International, where he is Corporate 
Vice President & Deputy General Counsel. Mr. Stephen's wealth of 
experience with both civil and criminal litigation, as well as his 
familiarity with the operation of DOJ at myriad levels, will serve him 
well in the position of Associate Attorney General.
    Out other nominee, Ben Reyna, is also highly qualified for the 
position to which he has been nominated: Director of the U.S. Marshals 
Service. The Marshals Service is critical because it:

        <bullet> Provides security for the nation's approximately 800 
        federal judicial facilities;
        <bullet> apprehends the majority of Federal fugitives;
        <bullet> operates the Federal Witness Security Program;
        <bullet> maintains custody of federal prisoners and handles 
        their transportation;
        <bullet> executes court corders and arrest warrants; and
        <bullet> responds to emergencies including terrorist incidents 
        and other crisis situations.

    Mr. Reyna has achieved--during his 25-year in law enforcement--just 
the kind of broad and deep experience in modern police practices needed 
for this job. Mr. Reyna served as Chief of Police in the city of 
Brownsville, Texas for 6 years--after working up the ranks from Police 
Cadet, Patrolman, Sergeant, Lieutenant, and Commander. He led a police 
department of 233 sworn police officers in confronting the widest 
variety of law enforcement issues handled by police departments in our 
country. With Brownsville's proximity to an international border and a 
Mexican city with a population of 700,000, Mr. Reyna has been 
responsible for everything from drug interdiction to the annual spring 
break migration of approximately 40,000 students per week who cross the 
border to purchase alcohol. One of his most profound accomplishments is 
obtaining very close cooperation with a variety of United States 
agencies as well as the authorities in Mexico. Mr. Reyna has also 
served as the City of Brownsville Emergency Management Coordinator, 
responsible for operations plans for weather-related incidents and 
other hazardous situations.
    Again, it is a great pleasure to welcome both of you to the 
Committee. I look forward to this hearing, and to working with Chairman 
Leahy and others to make sure the Committee and the full Senate hold 
timely votes on you nominations.

    Senator Durbin. Thank you, Senator Hatch.
    Senator Specter, do you have an opening statement?

STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM THE STATE 
                        OF PENNSYLVANIA

    Senator Specter. Yes. Thank you, Mr. Chairman.
    I commend the chairman for moving ahead with these two 
nominations to try to put the full team in place to handle the 
very difficult problems which we are facing today. I believe it 
is necessary for the committee and the full Senate and the full 
Congress to act expeditiously on many issues which are pending.
    Just a word or two, and I shall communicate this directly 
to the chairman as well. It is my hope that we will move ahead 
very promptly on the package presented by the Attorney General 
yesterday on wiretaps and search and immigration issues.
    The Attorney General said that he would like to have the 
legislation enacted this week. I think that is not doable. To 
have it presented in an outline form on Wednesday and to start 
discussions is asking too much for the Congress to respond on 
the kinds of complicated issues which are involved here which 
impact very directly upon constitutional rights, recognizing 
the importance of prompt action so that the executive branch 
can have in place what it needs.
    It would be my hope that we would be holding hearings on 
this subject before this week is up. This is Thursday morning. 
It is a busy week. Many of our colleagues are on their way to 
New York, and many of us stayed back to handle pressing issues. 
This hearing is important. The Appropriations Subcommittee on 
Transportation will be hearing from Secretary Mineta this 
afternoon on what is going to happen with the airlines and many 
other important issues. And, of course, it is not business as 
usual.
    Senator Hatch and I had a chance before yesterday's meeting 
to talk very briefly to Attorney General Ashcroft, and it was 
our hope that we might have gotten the Deputy Attorney General 
or the Assistant Attorney General for Criminal or the Assistant 
Attorney General for Legal Counsel up to start to discuss this 
legislative package so that we could have fairly prompt action.
    When you talk about some of the emergency provisions to try 
to give special agents-in-charge at the FBI authority to apply 
for emergency warrants, a preliminary review suggests to me 
that we ought to be having U.S. Attorneys do that. The Attorney 
General has already said he is going to have each U.S. Attorney 
have its own task force--we moved in Philadelphia to have the 
U.S. Attorney sworn in on an expedited basis on Monday--or some 
of these provisions on immigrants perhaps to have a sunset 
provision so that they are not permanent, and see how they work 
where we have an opportunity for greater legislative analysis.
    But the point is that this committee has had a lot of 
experience in the field. The chairman was vice chairman of the 
Intelligence Committee in the mid-1980s. Senator Hatch serves 
on the Intelligence Committee. Senator Durbin has had extensive 
experience in the field. I have had some chairing the 
Intelligence Committee, on this committee, and in the 
prosecutorial role.
    So it is my hope--and staff will hear this and, as I say, I 
will communicate directly with Chairman Leahy--that we might 
move ahead. We are not going to act precipitously, but we ought 
to act expeditiously.
    I wanted to make those few comments at this time. Thank 
you, Mr. Chairman.
    Senator Durbin. Thank you, Senator Specter, and I would 
like to join in. There were many of us who hoped that we could 
go to New York as well, but we have important business here and 
part of it relates to the two nominees who are before us today. 
Our hearts are with our colleagues who are up there viewing the 
tragic scene.
    I might also say that I was advised that the Attorney 
General's proposed changes were received yesterday afternoon. 
They are substantial and we want to make certain that we move 
expeditiously, but take some care to make certain that we don't 
make decisions we might regret at some later time.
    I think your recommendation of early hearings is an 
excellent one and I hope that Senator Leahy will be able to 
move forward on that quickly.
    Now, we have statements which will be made part of the 
record from Senators--Senator Hutchison, on behalf of Mr. 
Reyna, as well as Senator Warner, on behalf of Mr. Stephens, 
and Senator Grassley. Without objection, they will be made part 
of the record.
    [The prepared statement of Senator Warner follows:]

    Statement of Hon. John Warner, a U.S. Senator from the State of 
 Virginia, on the Nomination of Jay B. Stephens to be a U.S. Associate 
                            Attorney General

    Chairman Leahy, Senator Hatch, and my other distinguished 
colleagues on the Senate's Judiciary Committee, I am pleased to 
introduce to you today Jay Stephens, who has been nominated to serve as 
Associate Attorney General in the United States Department of Justice.
    The Office of the Associate Attorney General advises and assists 
the Attorney General and the Deputy Attorney General in formulating and 
implementing policies and programs pertaining to justice, federal and 
local law enforcement, and public safety matters.
    The Associate Attorney General also oversees several DOJ 
components, including the antitrust division, the civil division, the 
civil rights division, and the violence against women's office, to name 
only a few.
    Mr. Chairman, I have known Mr. Stephens for several years as a 
result of his many years of public service in Washington, D.C. and from 
his many years as a Virginia resident. I am confident that Jay Stephens 
will serve as an excellent Associate Attorney General.
    Jay Stephens has extensive experience in the Justice Department. 
From 1977-1981 he served as an Assistant United States Attorney for the 
District of Columbia. From 1981-1985, Mr. Stephens held several 
positions in the Department of Justice, including Principal Associate 
Deputy Attorney General.
    In March of 1988, while he was serving as Deputy Counsel to 
President Reagan, President Reagan appointed Mr. Stephens to serve as 
United States Attorney for the District of Columbia, a position he 
served in until 1993.
    Since leaving public service in 1993, Jay Stephens has worked as a 
partner in the Washington, D.C., law firm of Pillsbury, Madison & Sutro 
and as corporate vice president and deputy general counsel of 
Honeywell.
    Clearly, Mr. Stephens has extensive professional experience that 
makes him highly qualified to serve as Associate Attorney General for 
the Justice Department. He has dedicated a large portion of his career 
to public service, and I am thankful for his willingness to serve our 
country once again.

    [The prepared statement of Senator Grassley follows:]

Statement of Hon. Charles E. Grassley, a U.S. Senator from the State of 
  Iowa on the Nomination of Jay B. Stephens to be Associate Attorney 
                                General

    It is my pleasure to introduce Jay Stephens, a distinguished Iowan 
who has been nominated to serve as Associate Attorney General at the 
Justice Department. Jay Stephens was born in Akron, Iowa, graduated 
from Harvard College in 1968 and Harvard Law School in 1973. He is 
married to Julie Marie Stephens, and has four children. Mr. Stephens 
brings exemplary experience and knowledge to the position of Associate 
Attorney General, and he will be a tremendous asset for the Justice 
Department.
    Mr. Stephens began his legal career as a law firm associate, and 
then served as an Assistant Special Prosecutor for the Watergate 
Special Prosecution Force. In 1976, he was appointed as an Associate 
General Counsel for the Overseas Private Investment Corporation.
    From 1977 to 1981, Mr. Stephens served as an Assistant United 
States Attorney for the District of Columbia in Washington, D.C. In 
1981, he joined the Department of Justice as Counsel to the Assistant 
Attorney General of the Criminal Division and as Principal Associate 
Deputy Attorney General. During both of these positions, he served on 
the FBI's Undercover Operations Review Committee.
    From 1986 to 1988, Mr. Stephens had the privilege to serve as 
Deputy Counsel to the President, where he was responsible for providing 
advice and counsel to the President and senior White House staff on a 
wide range of legal and policy issues. He was the principal liaison to 
the Secret Service and the FBI on White House and Presidential 
appointment matters, as well as the White House liaison to the 
Department of Justice through the Deputy's office and the Office of 
Legal Counsel.
    For the next five years, Mr. Stephens continued to serve in a 
senior-level position as an United States Attorney for the District of 
Columbia. From 1993 to 1997, he served as a co-managing partner of a 
large international law firm, and from 1997 to the present, he has 
served as a senior legal officer at Honeywell International.
    Jay Stephens has had a truly impressive career. He has shown 
exceptional public service and responsibility, and has demonstrated 
stellar credentials and legal expertise. So it is with great respect 
and admiration that I commend Jay Stephens to the Committee for your 
favorable recommendation. I hope that the Judiciary Committee and the 
full Senate will move to confirm Jay Stephens promptly. We need as many 
good men and women in positions of leadership in law enforcement and 
justice administration, particularly in the wake of the cowardly 
attacks on the World Trade Center and the Pentagon.

    Senator Durbin. I would like to ask Mr. Reyna if he would 
please come forward for the administration of the oath.
    Do you swear that the testimony you are about to give 
before the committee will be the truth, the whole truth and 
nothing but the truth, so help you God?
    Mr. Reyna. I do.
    Senator Durbin. Mr. Reyna, thank you very much for joining 
us today, and if you would be kind enough to introduce your 
family that has joined you and make your statement.

 STATEMENT OF BENIGNO G. REYNA, NOMINEE TO BE DIRECTOR OF THE 
                 UNITED STATES MARSHALS SERVICE

    Mr. Reyna. Thank you, Mr. Chairman. Mr. Chairman, 
distinguished committee members, I am honored for the 
opportunity to appear before you. My wife, Maria, my strongest 
supporter, is accompanying me today. Our sons were looking 
forward to being here and would have been most honored to 
appear before this distinguished panel, but were unable to 
attend due to the short notice of the trip and their necessary 
attendance in school.
    My opening statement will be brief so that I may answer 
your questions and address any specific matters that may be of 
concern to you. But I want to begin by highlighting the words 
that are inscribed in the walls of a memorial that pays tribute 
to the many law enforcement officers that have lost their lives 
in the line of duty.
    In dedicating the National Law Enforcement Officers 
Memorial a few blocks from where we are today, President George 
Bush observed 10 years ago that, and I quote, ``Carved on these 
walls is the story of America, of a continuing quest to 
preserve both democracy and decency, and to protect a national 
treasure that we call the American dream.''
    As we move forward from September 11, 2001, as a stronger 
Nation, these words serve as a permanent reminder of who we are 
and our greater purpose as public servants. I am honored by 
President George W. Bush's nomination as Director of the United 
States Marshals Service, and I thank you for the opportunity to 
appear before you so promptly.
    As the first Federal law enforcement agency created in this 
country, the United States Marshals Service is an integral part 
of the American story. The tradition of service and leadership 
is as rich as that of our great Nation. The men and women of 
the United States Marshals Service deserve great credit for 
maintaining the efficient and secure operations of the Federal 
judiciary. Security and integrity of our Nation's judicial 
process will be critical in maintaining public confidence.
    The investigative assets of the United States Marshals 
Service that effectively protect witnesses and apprehend 
fugitives are legendary. The success draws from a tradition of 
effective cooperation with Federal, State and local law 
enforcement agencies. I have seen firsthand in my 25 years of 
policing the effectiveness and efficiency of working as a law 
enforcement team. The United States Marshals Service is widely 
regarded in law enforcement as a reliable and valued partner. 
Now more than ever, interagency cooperation must be embraced 
and practiced as we face formidable public safety challenges.
    We as a Nation are facing unprecedented challenges that 
call upon the United States Marshals Service for extraordinary 
service. I have no doubt that the Marshals Service will rise to 
meet such challenges just as it has in the last 212 years.
    The role of law enforcement will be critical as we confront 
a new kind of national enemy and their support systems. The 
United States Marshals Service will be a leading agency in 
maintaining public confidence and security as Federal, State 
and local agencies work side by side in identifying and 
bringing to justice those individuals and organizations that 
attack freedom and human progress.
    Mr. Chairman and distinguished members, if confirmed as the 
Director of the United States Marshals Service, I will build 
upon the great strengths of the Service. The United States 
Marshals Service will respond to these challenges in its finest 
tradition of service and leadership.
    Although we are facing uncharted dimensions of national 
threat, the constitutional foundations of our freedom and 
democracy will guide my leadership of the United States 
Marshals Service. We can never lose sight of these principles 
that define America and inspire the American dream.
    Thank you, and I will be happy to address any questions.
    [The prepared statement and biographical information of Mr. 
Reyna follow.]

   Statement of Benigno G. Reyna, Nominee to be Director of the U.S. 
                            Marshals Service

    Mister Chairman, distinguished committee members, I am honored for 
the opportunity to appear before you. My wife Maria, my strongest 
supporter, is accompanying me today. Our sons were looking forward to 
being here and would have been most honored to appear before this 
distinguished panel, but were unable to attend due to the short notice 
of this trip and their necessary attendance at school.
    My opening statement will be brief so that I may answer your 
questions and address any specific matters that may be of concern to 
you.
    I want to begin by highlighting the words that are inscribed in the 
walls of a memorial that pays tribute to the many law enforcement 
officers that have lost their lives in the line of duty. In dedicating 
the National Police Memorial a few blocks from where we are today, 
President George Bush observed some ten years ago that ``Carved on 
these walls is the story of America,--of a continuing quest to preserve 
both democracy and decency,--and to protect a national treasure,--that 
we call the American Dream.'' As we move forward from September 11, 
2001, as a stronger nation, these words serve as a permanent reminder 
of who we and our greater purpose as public servants.
    I am honored by President George W. Bush's nomination as the 
Director of the United States Marshals Service. Thank you for the 
opportunity to appear before you so promptly.
    As the first federal law enforcement agency created in this 
country, the United States Marshals Service is an integral part of the 
American story. The tradition of service and leadership is as rich as 
that of our great nation. The men and women of the United States 
Marshals Service deserve great credit for maintaining the efficient and 
secure operations of the federal judiciary. Security and integrity of 
our nations judicial process will be critical in maintaining public 
confidence. The investigative assets of the United States Marshals 
Service that effectively protect witnesses and apprehend fugitives are 
legendary. The success draws from a tradition of effective cooperation 
with federal, state, and local law enforcement agencies. I have seen 
first hand, in my twenty-five years of policing, the effectiveness and 
efficiency of working as a law enforcement team. The United States 
Marshals Service is widely regarded in law enforcement as a reliable 
and valued partner. Now more than ever, interagency cooperation must be 
embraced and practiced as we face formidable public safety challenges.
    We as a nation are facing unprecedented challenges that call upon 
the United States Marshals Service for extraordinary service. I have no 
doubt that the Marshals Service will rise to meet such challenges, as 
it has for almost 212 years. The role of law enforcement will be 
critical as we confront a new kind of national enemy and their support 
systems. The United States Marshals Service will be a leading agency in 
maintaining public confidence and security as federal, state and local 
agencies work side by side in identifying and bringing to justice those 
individuals and organizations that attack freedom and human progress.
    Mr. Chairman and distinguished members, if confirmed as Director of 
the United States Marshals Service, I will build upon the great 
strengths of the Service. The United States Marshals will respond to 
these challenges in its finest tradition of service and leadership.
    Although we are facing uncharted dimensions of national treat, the 
Constitutional foundations of our freedom and democracy will guide my 
leadership of the United States Marshals Service. We can never loose 
sight of these principles that define America and inspire--``the 
American Dream.''

[GRAPHIC] [TIFF OMITTED] T1139.001

[GRAPHIC] [TIFF OMITTED] T1139.002

[GRAPHIC] [TIFF OMITTED] T1139.003

[GRAPHIC] [TIFF OMITTED] T1139.004

[GRAPHIC] [TIFF OMITTED] T1139.005

[GRAPHIC] [TIFF OMITTED] T1139.006

[GRAPHIC] [TIFF OMITTED] T1139.007

[GRAPHIC] [TIFF OMITTED] T1139.008

[GRAPHIC] [TIFF OMITTED] T1139.009

[GRAPHIC] [TIFF OMITTED] T1139.010

[GRAPHIC] [TIFF OMITTED] T1139.011

[GRAPHIC] [TIFF OMITTED] T1139.012

[GRAPHIC] [TIFF OMITTED] T1139.013

[GRAPHIC] [TIFF OMITTED] T1139.014

[GRAPHIC] [TIFF OMITTED] T1139.015

[GRAPHIC] [TIFF OMITTED] T1139.016

[GRAPHIC] [TIFF OMITTED] T1139.017

[GRAPHIC] [TIFF OMITTED] T1139.018

[GRAPHIC] [TIFF OMITTED] T1139.019

[GRAPHIC] [TIFF OMITTED] T1139.020

[GRAPHIC] [TIFF OMITTED] T1139.021

[GRAPHIC] [TIFF OMITTED] T1139.022

[GRAPHIC] [TIFF OMITTED] T1139.023

[GRAPHIC] [TIFF OMITTED] T1139.024

[GRAPHIC] [TIFF OMITTED] T1139.025

[GRAPHIC] [TIFF OMITTED] T1139.026

[GRAPHIC] [TIFF OMITTED] T1139.027

[GRAPHIC] [TIFF OMITTED] T1139.028

    Senator Durbin. Thank you very much for your testimony, and 
I notice not only your 25 years of service, but also a lot of 
community activity, too, supporting children's projects. I 
think that is very commendable on your part.
    It also says that you are a native of Brownsville. Is that 
correct?
    Mr. Reyna. Yes, Senator.
    Senator Durbin. And a first-generation American, is that 
correct?
    Mr. Reyna. Yes, sir, I am.
    Senator Durbin. And your parents came from--
    Mr. Reyna. Mexico.
    Senator Durbin. Let me ask you this question. It probably 
is something that no one would have even thought of 10 days 
ago, but have you reflected on the possibility of a new role 
for the U.S. Marshals service relative to either the sky 
marshals, air marshals, that we have talked about or other 
counter-terrorist activities?
    Mr. Reyna. Mr. Chairman, I have no doubt that the United 
States Marshals Service can rise to a leadership role in 
dealing with this very serious national threat that is upon us. 
I think that over the last few days the United States Marshals 
have already responded to the needs that are facing our 
country.
    Senator Durbin. And, of course, there will be a new level 
of heightened security because of what we have been through and 
the Marshals will be on the front line when it comes to 
protecting many of the important resources of our law 
enforcement system.
    In your past work as chief in Brownsville, have you worked 
directly with Federal agencies?
    Mr. Reyna. Yes, sir, quite extensively. One of the things 
that we are very proud about in our area is that we view 
ourselves as a law enforcement team. If there are any issues 
within the community, it is not the Bureau's problem or the 
Drug Enforcement Administration's problem. It is our problem, 
and we have been able to work on many fronts, very many special 
programs, and certainly have been able to deal with a lot of 
the sensitive issues that arise in and around a border.
    Senator Durbin. Thank you.
    Senator Hatch, I don't know if you have any questions of 
this witness, but I will give you this opportunity.
    Senator Hatch. Well, let me just say, as I would have 
mentioned in my opening statement, the police department in the 
city of Brownsville is confronted by some unique issues, in 
addition to those typical of comparably sized cities in the 
United States.
    Brownsville location, immediately adjacent to a much larger 
city across the border in Mexico, presents law enforcement 
issues that are not within the city's jurisdiction, but 
nevertheless are important to the residents of Brownsville.
    I know that you and your police department have worked 
closely as a partner with the various U.S. Federal law 
enforcement agencies, as well as Mexican officials. Would you 
please explain your views on the importance of cooperative law 
enforcement and tell us whether you see any ways to improve the 
way the Marshals Service cooperates with the many agencies with 
which it has contact and works?
    Mr. Reyna. Thank you, Senator Hatch. Interagency 
cooperation, I think, is of utmost importance. I think one of 
the most fundamental principles, I guess, that we first must 
recognize within law enforcement is that we are public 
servants, and as such we need to extend beyond those 
limitations that perhaps we have just by simple policing 
structures.
    There is no doubt, and from personal experience, we have 
seen tremendous results in these cooperative efforts in all 
areas. In our particular area, obviously we have the United 
States Border Patrol, the Immigration and Naturalization 
Service, the Agriculture Department, a lot of other departments 
that perhaps other cities don't have to have perhaps daily 
operations with.
    One of the things that we have found is that in order for 
us to maximize our resources and meet the ever-changing public 
demand is to share local assets with the Federal agencies. And 
it goes beyond personnel. It includes equipment, and more 
importantly it includes working together and defining certain 
policies that will protect and make a safer community.
    We have dealt with many issues, including issues from high-
risk incidents involving education, all the way to border 
issues. And I am certainly proud to say that all Federal 
agencies have been very supportive. The United States Marshal 
has a special program that we work with. They are right across 
the street from the Brownsville Police Department and have also 
played a vital role in improving the safety and welfare of our 
community.
    Senator Hatch. Thank you. In addition to your duties as 
Chief of the Brownsville Police, you have served as a 
commissioner with the Texas Commission on Law Enforcement 
Officer Standards and Education. As I understand it, the 
Commission is the State's regulatory, licensing and 
policymaking body for public safety which oversees 
approximately 55,000 peace officers. The Commission's goal is 
to improve the law enforcement profession by developing and 
administering professional standards.
    Do you think your experience on the Commission will be of 
help to you as the Director of the Marshals Service, and do you 
have any ideas as to how to keep or even improve upon the high 
professional standards that we have come to expect of the 
Marshals Service?
    Mr. Reyna. Senator Hatch, the Texas Commission on Law 
Enforcement--traditionally, though it is a regulatory agency, 
its biggest purpose and mission was to raise the bar within the 
law enforcement profession, and has done a tremendous job of 
doing that.
    Texas is a very large State, with about approximately, as 
you indicated, 55,000 licensed peace officers. But the Texas 
Commission on Law Enforcement also licenses and regulates the 
police academies, and is also a support unit for our 
legislature in trying to develop programs that will assist 
local law enforcement agencies.
    One of the biggest focuses that we had was supporting the 
small police department, the 3- or 4-man police department, to 
one of the country's largest police departments. And it is 
through that experience that certainly I attained there, and 
certainly from all my colleagues, that certainly gives me the 
ability to understand the different needs, and more importantly 
the changing needs and demands, and being able to develop an 
agency that is certainly structured to be willing to adapt to 
our changing needs. Currently, we have one of those changing 
needs before us as we go beyond last week.
    Senator Hatch. Well, great. I am really thrilled with your 
appointment. I am happy to support you and I hope we can get 
you through as quickly as possible.
    That is all I have, Mr. Chairman.
    Senator Durbin. Thank you, Senator Hatch.
    Mr. Reyna, thank you very much for joining us today. There 
may be some questions submitted by other members of the panel 
who couldn't be here this morning. I know that Senator Leahy is 
also going to--well, here comes Senator Leahy just as I speak. 
Staff had advised me he was going to try to make it to say his 
words of greeting.

  STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    Chairman Leahy. Yes, thank you, and I thank Senator Hatch. 
I was just talking with Senator Specter, who I know is outside, 
who has been on this.
    Chief, good to have you here. We have all been trying to do 
about five different things. We are trying to move quickly 
forward. Senator Hatch and Senator Specter and I met with the 
Attorney General yesterday. I think he was beginning to think I 
was the next thing to a house guest. Over the weekend, we met a 
number of times at the Department of Justice, and talked 
several times a day by phone.
    We have been meeting. We have a series of pieces of 
legislation, I would just advise my colleagues, that the 
Attorney General and I and others have been working on. We have 
found ourselves in basic agreement on a number of the pieces of 
it and have tried to work on others.
    I know that some of the leadership in both the Republican 
leadership and Democratic leadership in the House have some 
problems with some parts of it. We are going to try to resolve 
much of that. Our staffs will be working throughout the weekend 
on this. We have just gotten a working draft from the 
Department of Justice and we are going through it line by line 
with proposals that I have made and other Senators have made 
from other committees. We are working those things out and will 
throughout the weekend.
    I have cancelled plans to leave town this weekend just to 
stay and be available to work on this. I would encourage all 
Senators who can to stay here this weekend or stay available 
this weekend to work on this. The Attorney General will be 
before the committee on Tuesday of next week to outline the 
plans. I hope we can discuss at that point a number of areas in 
which we are in agreement. I suspect there will be far more 
areas of agreement than disagreement.
    The Republican Leader in the Senate suggested that he 
thought very expeditiously would be a couple of weeks, knowing 
that it took us two months after the Oklahoma City bombing to 
do it. We are all committed to move as quickly as we can. There 
are so many things, though, that are in the works and that we 
already can do.
    I know, Chief, you work with the local Mexican authorities 
and Federal law enforcement agencies--Border Patrol, FBI, DEA. 
We have a program called Northstar. It is an intelligence-
swapping network between U.S. and Canadian local police, 
customs officials and prosecutors. The Attorney General gave 
his approval for the program when he visited Ottawa, and I 
would hope that you and the Marshals Service would be 
supporting that and helping to make that project work. For 
those of us who live along the northern border, it is very 
important to us.
    Mr. Reyna. I certainly look forward to working with that 
program, Mr. Chairman.
    Chairman Leahy. Thank you, and I would also urge that we 
move expeditiously in getting local Marshals up here. My 
understanding is that we have not received a single nomination 
for U.S. Marshals for any of the States or districts.
    Your papers came up here last week. I told the Attorney 
General we would move far faster than normally--in fact, we had 
another hearing scheduled this morning--to move you forward so 
that we can get you in place. We are going to try to get a 
number of others for the Justice Department in place as quickly 
as possible.
    But please tell them, if we are going to have new Marshals 
in all of the States, to get those names up here as quickly as 
possible. I have no idea how long the Senate will be in session 
this year and we want to move forward as quickly as we can.
    I thank Senator Durbin for coming here to do this, and 
Senator Hatch and Senator Specter. I thought when we finished 
maybe the four of us could chat out back.
    [The prepared statement of Senator Leahy follows:]

 Statement of Hon. Patrick J. Leahy, a U.S. Senator from the State of 
Vermont on the Nominations of Jay B. Stephens to be Associate Attorney 
   General and Benigno G. Reyna to be Director of the United States 
                            Marshals Service

    I have called this hearing on an expedited basis for nominations 
received only last week from the Administration. Given the terrible 
events of the last week, I thought it important that we move forward 
with the nominations of two critical appointments that we have before 
us today, the President's nomination to head the United States Marshals 
Service and to serve as the third-highest ranking official at the 
Department of Justice, the Associate Attorney General.
    I welcome our nominees and thank them for their cooperation. I 
would especially like to thank Chief Reyna, who flew here all the way 
from Texas. Last week, the Committee proceeded with the nomination of 
John Gillis to head the Office for Victims of Crime, as well as with a 
dozen United States Attorneys whose paperwork we insisted be expedited. 
The Senate confirmed them all last week, along with another nominee 
from Texas to head the Bureau of Justice Assistance within the 
Department of Justice. I am proud of the way this Committee and the 
Senate have responded to the circumstances of the last week and the 
support we have been able to provide to the Administration. This 
hearing continues that effort.
    The position of Associate Attorney General has always been 
important, but it is especially so in light of the recent attacks on 
innocent Americans. Among the many responsibilities of Associate 
Attorney General are supervisory responsibility for the Civil Rights 
Division at the Department of Justice and of the Office of Justice 
Programs, which includes the Office for Victims of Crime and, I believe 
our federal assistance programs to policeman, fireman and other public 
safety officers and their families injured or lost in the line of duty.
    The Civil Rights Division, which plays an important role in the 
lives of all Americans, will have a special role in helping the FBI and 
local authorities ensure the rights of Arab-Americans. No one should 
become a target of hate or discrimination because of their religion, 
nationality or ethnic background. In response to the devastation we 
witnessed as a nation on September 11, the Office of Victims of Crime 
is assisting many victims and their families. The resources for our 
victims assistance and counseling programs, as well as the federal 
contributions to State and national assistance and compensation 
programs, are essential to ongoing efforts to provide support to those 
victimized last Tuesday.
    Following the leadership of Senator Clinton, the Senate has already 
indicated ways in which we can improve benefits to the families of 
public safety officers and I want to work with the Attorney General to 
streamline and improve those benefits.
    The Office of the Associate Attorney General also has 
responsibility for the Antitrust Division, the Civil Division, the Tax 
Division, and the Environmental and Natural Resources Division. We are 
beginning to see and formulate legislative proposals that will call 
upon the expertise and capacities of all these components of the 
Department of Justice. Until now, the Attorney General and Deputy 
Attorney General have had a number of Assistant Attorneys General on 
whom to rely but no nominee to serve as the Associate. It was not until 
September10 that the Senate received Mr. Stephens' nomination. We have 
all worked together to expedite the paperwork necessary to consider 
this nomination and today, at our first opportunity to hold this 
hearing, we are prepared to proceed.
    Before joining the private sector in 1993, Mr. Stephens held the 
positions of Deputy Counsel to President Reagan, Associate Deputy 
Attorney General, Deputy Associate Attorney General, Counsel to the 
Assistant Attorney General for the Criminal Division, United States 
Attorney for the District of Columbia, and Assistant United States 
Attorney for the District of Columbia.
    The person who fills the position of Associate Attorney General not 
only needs the full confidence of the President, the Deputy Attorney 
General and the Attorney General; he also needs the confidence and 
trust of the Congress and the American people. We all look to the 
Department of Justice to ensure even-handed law enforcement and 
protection of our basic constitutional rights--including freedom of 
speech, the right to privacy, a woman's right to choose, freedom from 
government oppression, and equal protection of the laws. The leadership 
at the Department of Justice plays a critical role in bringing the 
country together, bridging racial divisions, and inspiring people's 
confidence in their Government. I cannot remember a more challenging 
time for the Department of Justice. All of us are pulling together and 
the Associate Attorney General will play a key role in the weeks and 
months ahead.
    I have already made reference to Chief Benigno Reyna. Chief Reyna 
is the President's nominee to direct a crucial component of our federal 
law enforcement family, the United States Marshals Service. The United 
States Marshals Service was created more than 200 years ago by the 
first Congress in the Judiciary Act of 1789, the same legislation that 
established the federal judicial system. It is the federal law 
enforcement agency with the longest history and it possesses a storied 
record of achievements. Our Marshals now support and protect the 
federal courts around the country and carry out the orders issued by 
judges. They also assist in the enforcement of laws written by Congress 
and signed by the President.
    Over the past 200 years, Congress and the President have called on 
the Marshals to carry out a myriad of important law enforcement 
missions, and we are calling on them again. I know that Deputy Marshals 
from Vermont, for example, are helping with operations in Vermont and 
in other parts of New England to ensure airport security and to protect 
government operations and all Americans. Although the Senate did not 
receive the President's nomination of Chief Reyna until September 12, 
we are proceeding as expeditiously as we can.
    I do not intend for this proceeding today to indicate anything but 
support for the Department of Justice and the United States Marshals. I 
thank the Acting Director of the United States Marshals Service, Louie 
T. McKinney, and all of the acting United States Marshals and Deputy 
Marshals from around the country for their service in the past 
difficult days and for their continuing dedication and sacrifice.
    Since 1976, Benigno Reyna has worked for and headed the Police 
Department of Brownsville, Texas, where he served as Chief from 1995 
until his retirement this past May. During his tenure at the 
Department, he participated in a remarkable collaboration between the 
Brownsville community and the adjacent city of Matamoros, located 
across the Mexican border. The two communities have worked together to 
establish policies on cross-border arrests and the extradition of 
minors to their home country of Mexico or the United States.
    Because of Brownsville's unique geographical location at the United 
States border, there is a need for communication between the 
Brownsville Police and federal law enforcement agencies, such as the 
DEA, the FBI, and the United States Border Patrol. In December, 1999, 
the Brownsville Police Department became the third site in the United 
States to implement a multi-agency, wireless radio interoperability 
communications system. This system allows for field unit to field unit 
communications between Brownsville police and federal law enforcement 
agencies. I want to hear about that regional law enforcement 
communications network they used and work with him to ensure that we 
quickly make progress on the longstanding proposal for a better 
regional communications along our northern border as well.

    Senator Durbin. Thank you.
    Senator Specter, do you have any questions?
    Senator Specter. I do not have questions. I compliment Mr. 
Reyna for the nomination. I note your excellent academic record 
and your long experience in law enforcement. I believe you will 
be confirmed and, once confirmed, you will have a job which is 
traditionally very important and now it is even more important.
    I see the work of the Marshals in the three districts in 
Pennsylvania and what they do, very significant work on 
security for judges, and I am glad to see you with this hearing 
and moving forward to be in place to carry out these important 
functions.
    Good luck.
    Mr. Reyna. Thank you, Senator Specter.
    Senator Durbin. Thank you, Senator Specter.
    Chief Reyna, thanks for joining us today. We appreciate it 
very much.
    Mr. Reyna. Thank you, Mr. Chairman.
    Senator Durbin. Mr. Stephens, can I ask if you will stand 
to be sworn?
    Do you swear the testimony you are about to give is the 
truth, the whole truth and nothing but the truth, so help you 
God?
    Mr. Stephens. I do.
    Senator Durbin. Thank you very much.
    Chairman Leahy. If I might interrupt, Mr. Chairman, Mr. 
Stephens was one of the nominees specifically that Attorney 
General Ashcroft asked if we could expedite and we are trying 
to do that.
    Senator Durbin. Thank you.
    Mr. Stephens, thank you for joining us, and if you would be 
kind enough to introduce your family and make your opening 
statement.

STATEMENT OF JAY B. STEPHENS, NOMINEE TO BE ASSOCIATE ATTORNEY 
                 GENERAL, DEPARTMENT OF JUSTICE

    Mr. Stephens. I would be delighted. Thank you very much, 
Mr. Chairman, members of the committee. I am honored to have 
the opportunity to appear before you today as you consider my 
nomination to serve as Associate Attorney General of the United 
States.
    I would like to thank the members and your staff for the 
courtesies they have extended to me, and I, if confirmed, would 
welcome the opportunity to work cooperatively with you to work 
on the issues which are of concern to you, the President, and 
the people of this country.
    I would also like to thank Senator Warner and Senator 
Grassley for their statements. I know each of them wanted to be 
here today, but they have other important business and I 
appreciate their consideration.
    I especially appreciate the willingness of the chairman to 
schedule this hearing promptly and to move forward promptly on 
my nomination at a time when I know the Senate has a lot of 
other issues that they need to focus on with regard to the 
present crisis. I think this clearly demonstrates your 
commitment to help the Justice Department deal effectively with 
its current challenges, and if confirmed I would look forward 
to assisting the Department and its leadership in any way that 
I can.
    I would like to introduce my family, in my particular my 
wife, who has been a real partner and very supportive as we 
have considered the possibility of coming back to public 
service. There are some sacrifices involved, as Senator Hatch 
has noted.
    My children: my daughter Alexandra, who is 5 years old; my 
daughter Amanda, who is a senior in high school and 17. 
Alexandra just started kindergarten. My daughter, Jessica, who 
is in 7th grade, and my son, Jay, who is in 5th grade. They are 
delighted to be here to see our Government in action and to 
participate in this proceeding this morning.
    Let me say, as well, that I come before you, I think, at a 
time in our Nation's history when the safety of our people and 
the security of our Nation has been challenged by violent acts 
of faceless terrorists. This is a time when our Nation has 
experienced great pain and sorrow, but this is also a time when 
the greatness of America has shown through in the darkness.
    We have witnessed acts of kindness and support, we have 
seen the pride of being an American, and we have seen the 
spirit of our people radiate both courage and compassion. We 
frankly have witnessed how much we can do when we work 
together.
    As I have personally reflected on the events of the past 
few days, I have been very inspired by the images and the 
sounds of Americans working together. I felt very great pride 
in watching a great, diverse people come together as one, and I 
tell you I have felt a conviction that this is a time for 
personal sacrifice in the public interest.
    This is a time when we can work together cooperatively. We 
can achieve our common goals and ensure that all our people 
live in a free and just society, and it is in that spirit that 
I come before you today not just to seek your consent to my 
nomination, but if you do confirm, to begin a cooperative 
working relationship to meet the challenges ahead to seek a 
just, free and safe society for all our people.
    During the past 30 years since I finished law school, I 
have been blessed with opportunities in both the public and 
private sector to contribute to my profession and my country. 
As a young lawyer, I served on the Watergate Prosecution Force, 
where I gained a deep appreciation for the importance of 
preserving the integrity of our institutions of Government and 
for that very fragile trust that we must keep between our 
leaders and our people.
    Later, I had an opportunity to serve for more than 4 years 
as an Assistant United States Attorney here in Washington. 
There, I saw firsthand the impact which drugs and violence have 
on our people and on our neighborhoods. I experienced, I would 
say, almost tangibly at times the sense of justice you get when 
the rights of victims are vindicated or when a community feels 
more secure, or even when you make a judgment not to proceed 
against a defendant because of insufficient evidence.
    During this service, I had the opportunity to try dozens of 
cases, including some of our most difficult homicide cases and 
sexual assault cases. What I really learned, besides being, I 
hope, I good trial lawyer, was to understand that people must 
have confidence in their justice system.
    After that, for nearly 5 years I served in the Justice 
Department, both as principal deputy in the Associate's office 
and as principal deputy in the Deputy's office. There, I had an 
opportunity to work on a broad range of issues that impacted 
our Nation.
    In particular, I helped develop the international reach of 
our law enforcement in an effort to deal with offshore criminal 
activity, narcotics trafficking and international terrorism. I 
also worked to implement a number of new statutes which the 
Congress had enacted, provided counsel on a wide variety of 
civil and criminal matters, served on the FBI Undercover Review 
Committee and on interagency counter-terrorism groups, and 
participated in managing the Department and its many 
components.
    For 2 years, I had the privilege of serving as deputy 
counsel to President Reagan, where I was able to provide some 
counsel and advice to senior White House staff and to the 
President.
    Then for more than 5 years, I had the privilege of serving 
here as United States Attorney for the District of Columbia, 
providing leadership to the largest and most active United 
States Attorney's office in our Nation. I was truly honored to 
lead a very talented group of inspired men and women who 
handled cases across the full spectrum of civil and criminal 
jurisdiction.
    We had a wide variety of cases and prosecutions during that 
period. We undertook an initiative to prosecute drug gangs, 
such as the Rayful Edmund organization, and more than a dozen 
other such gangs, resulting in more than 350 convictions.
    We prosecuted fraud and money laundering cases, and 
undertook an initiative to seek affirmative recoveries for 
Government program fraud. We prosecuted a number of public 
corruption cases involving local and Federal officials, both 
appointed and elected, and we prosecuted scores, perhaps even 
hundreds of homicide cases and narcotics cases at a time when 
the city was facing a real drug and homicide crisis. I 
established a sexual assault and child abuse prosecution 
section to give these difficult cases special attention, and 
developed a domestic violence initiative.
    Apropos to current events, during my service as U.S. 
Attorney we also undertook a number of international 
investigations and prosecutions involving the illegal export of 
arms and technology, violence against U.S. citizens overseas, 
and international terrorism.
    I participated in leading the Pan Am 103 bombing 
investigation and the indictment of two Libyan nationals in the 
Lockerbie bombing. This investigation was a cooperative effort 
with the Department, with law enforcement agencies around the 
world, as well as with the intelligence community and State 
Department. We also brought to justice individuals responsible 
for the assassination of Chilean Ambassador Letellier here in 
Washington, and those responsible for bombing the United States 
Capitol Building.
    But we also sought ways to enhance our local law 
enforcement effort during a very critical period when drugs and 
violence threatened our Nation's Capital. We developed a series 
of legislative proposals to deal with particular issues such as 
bail reform, homicide penalties, witness intimidation, car-
jacking, and I worked with our city council to seek their 
enactment. In all of this, we worked with a whole range of law 
enforcement agencies, Federal law enforcement, local law 
enforcement, with a number of Federal agencies, and at times 
with international law enforcement.
    I have also been blessed to have the opportunity to work in 
the private sector, both in private practice first at Wilmer, 
Cutler, where I learned a lot from some very talented lawyers, 
and later at Pillsbury, Madison and Sutro, where I had the 
opportunity to handle both individual clients and corporate 
clients in both civil and criminal matters.
    Most recently, I have had the opportunity for the last 5 
years to serve as Vice President and Deputy General Counsel of 
Honeywell, which is a global conglomerate corporation. There, I 
have had the opportunity to provide legal leadership for a 
variety of areas, including leading our litigation and 
regulatory group and our integrity and compliance effort. I 
have helped manage a diversified global business. I have 
resolved complex commercial, environmental, international 
trade, government contract, antitrust, intellectual property, 
and product liability cases.
    Let me say I bring no personal agenda to the Office of the 
Associate Attorney General, except this: First, to seek to 
build the trust of the American people in the integrity and the 
credibility of their institutions of justice; second, to work 
diligently to ensure that our people live in a free society 
without fear of violence; third, to provide a level playing 
field for our people to pursue their economic and their 
personal ambitions; fourth, to remember that we must be good 
stewards of our planet for ourselves and our future 
generations; fifth, to aggressively enforce the laws which the 
Congress has enacted; and finally, and perhaps most 
importantly, to act in all things with integrity and in the 
spirit of bringing justice to all our people.
    Throughout my career, I have been blessed to have worked 
with many talented people from whom I have learned much. I 
understand that people of diverse backgrounds can see issues 
differently, and that we must work diligently to reach 
resolutions and solutions that are both fair and credible to 
all affected.
    I appreciate that there is sometimes an undefined, yet 
tangible public interest which infuses our processes and 
decisions; that private entities and individuals frequently 
have a healthy skepticism of government and perhaps sometimes 
believe that government misuses its power; that prosecutorial 
authority should be exercised with restraint because of the 
impact it can have on people's lives and reputations and 
liberty. But I also know that we must vigorously but fairly 
enforce the laws which the Congress has enacted for the benefit 
of all our people.
    Let me say in closing that I have been inspired by the 
words of Teddy Roosevelt throughout my career when he said, 
``It is not the critic who counts, not the man who points out 
how the strong man stumbles, or the doer of deeds could have 
done them better. The credit belongs to the man who is actually 
in the arena ...''
    I have reflected also often on the words of Edmund Burke 
which I have shared frequently with young prosecutors as they 
came into the office. Burke said, ``The only thing necessary 
for the triumph of evil is for good men and women to do 
nothing.''
    At a time when our Nation faces great challenges, the 
strength of our people and the courage of our leaders will 
ensure that we remain a free people. By working together in the 
arena, we can secure justice for all our people. I trust that 
with your cooperation and your confidence, I may contribute in 
some small way to the continued vitality of our democracy and 
the liberty of our people.
    Mr. Chairman, I am truly grateful for the opportunity to 
appear before this committee today. I would like to thank the 
President and the Attorney General for their confidence in me. 
If confirmed, I would look forward to building a relationship 
of confidence and trust with this committee as together we work 
to promote justice for all.
    I would be pleased to try to respond to any questions you 
may have.
    [The prepared statement and biographical information of Mr. 
Stephens follow.]

 Statement of Jay B. Stephens, Nominee to be Associate Attorney General

    Mr. Chairman and Members of the Committee:
    I am honored to have the opportunity to appear before the Judiciary 
Committee today as you consider my nomination to serve as Associate 
Attorney General of the United States. I would like to thank the 
Members of the Committee and your staffs for the courtesies you have 
extended to me, and if confirmed, I will welcome the opportunity to 
work cooperatively with you on issues which are of concern to you, the 
President and the people of this nation.
    I especially appreciate your willingness to move forward promptly 
on my nomination at a time when the Senate's attentions is focused on 
the present crisis. This clearly demonstrates your commitment to help 
the Justice Department deal effectively with current challenges. If 
confirmed, I look forward to assisting the Department's leadership in 
any way that I can.
    I would like to take this opportunity to introduce my family. 
Joining me here today are my wide, Julie, who has been a real partner 
sand very supportive as we have considered the possibility of returning 
to public service; my daughter Amanda, who is a senior in high school 
my daughter Jessica, who is in the 7<SUP>th</SUP> grade; my son, Jay, 
who is in 5<SUP>th</SUP> grade; and my daughter, Alexandra, who is in 
kindergarten.
    I come before you at a time in our nation's history when the safety 
of our people and the security of our nation have been challenged by 
the violent acts of faceless terrorists. This is a time when our nation 
is experiencing great sorrow and pain. But this also a time when we 
have seen the greatness of America shine through the darkness. We have 
witnessed selfless acts of kindness and support; we have felt the pride 
of being an American; and we have seen the spirit of our people radiate 
courage and compassion. We have witnessed how much we can do when we 
work together for noble goals.
    As I have reflected on the events of the past few days, I have been 
inspired by the images and sounds of Americans working together; I have 
felt great pride in watching a great, diverse people come together as 
one. I have felt the conviction that this is a time for personal 
sacrifice to serve the public interest. This is a time we can work 
cooperatively together to achieve our common goals and to ensure that 
all our people live in a free and just society. It is in that spirit 
that I come before you today; not just to seek you consent to my 
nomination, but if you do consent, to begin a cooperative working 
relationship to meet the challenges ahead and to seek a just, free and 
safe society for all our people.
    During the past nearly 30 years since I finished law school, I have 
been blessed with opportunities both in the public and the private 
sectors to contribute to my profession and to our country. As a young 
lawyer, I served as an Assistant Watergate Special Prosecutor where I 
gained a deep appreciation for the importance of preserving the 
integrity of our institutions of government and of leaders keeping the 
fragile trust of our people. Later, I had the opportunity to serve for 
more than four years as an Assistant United States Attorney here in 
Washington. I saw first hand the impact which drugs and violence can 
have on people's lives and on our neighborhoods. I also experienced an 
almost tangible sense of justice when the rights of victims of almost 
tangible sense of justice when the rights of victims of crime were 
vindicated, when a community felt more secure, or when a judgment was 
made not to proceed against an accused because of insufficient 
evidence. During this service, I tried dozens of cases, including some 
of our most difficult homicides and sexual assaults prosecutions. I 
learned to be a good trial lawyer and to understand that our people 
must have confidence in their justice system.
    For nearly five years I served in the Justice Department, serving 
both as the Principal Deputy in the Associate's office and in the 
Deputy's office. There I had an opportunity to work on a broad range of 
issues that impacted our nation. I helped develop the international 
reach of our law enforcement in an effort to deal with offshore 
criminal activity, narcotics trafficking, and international terrorism. 
I also worked to implement a number of new statutes enacted by the 
Congress, provided counsel on a wide variety of civil and criminal 
matters, served on the FBI Undercover Review Committee and on 
interagency counter-terrorism groups, and participated in managing the 
Department and its many components.
    For two years, I had the privilege of serving as President Reagan's 
Deputy Counsel at the White House. There I had an opportunity to 
provide counsel to the President and senior White House staff on a host 
of legal policy matters. In addition, I worked with the FBI with 
respect to Presidential appointments and with the Secret Service with 
regard to White House security issues.
    For more than five years, I had the privilege of serving as United 
States Attorney for the District of Columbia and providing leadership 
for the nation's largest and most active U.S. Attorney's office. I was 
honored to lead a very talented group of inspired and dedicated men and 
women who handled cases across the full spectrum of civil and criminal 
jurisdiction.
    During my service, we undertook an initiative to prosecute major 
drug smuggling and distribution organizations, such as the Rayful 
Edmund organization, and handled more than a dozen major gang cases 
resulting in more than 350 convictions. We also prosecuted a series of 
fraud and money laundering cases and undertook an initiative to seek 
affirmative recoveries in government program fraud cases. We also 
prosecuted a series of fraud and money laundering cases and undertook 
an initiative to seek affirmative recoveries in government program 
fraud cases. We prosecuted a number of public corruption cases 
involving local and federal officials, both appointed and elected. We 
prosecuted scores of homicide cases and narcotics cases at a time when 
the city was facing a real drug and homicide crisis. I also established 
a Sexual Assault and Child Abuse prosecution section to give these 
difficult prosecutions special attention, and developed a domestic 
violence initiative.
    During my service as U.S. Attorney, we also undertook a number of 
international investigations and prosecutions involving the illegal 
export of arms and technology, violence against U.S. nationals 
overseas, and international terrorism. I participated in leading the 
Pan AM 103 bombing investigation and the indictment of two Libyan 
nationals in the lockerbie case. This investigation was a cooperative 
effort with the Department, and involved law enforcement agencies 
around the world as well as the intelligence community and the State 
Department. We also brought to justice individuals responsible for the 
assassination of Chilean Ambassador letellier here in Washington and 
for the bombing of the U.S. Capitol building.
    We also sought ways to enhance our local law enforcement effort 
during a very critical period when drugs and violence threatened our 
nation's capital. We developed a series of legislative proposals to 
deal with particular criminal justice issues were facing in Washington, 
such as bail reform, homicide penalties, witness intimidation, and car 
jacking, and I worked with the City Council to seek their enactment.
    In all our investigations and prosecutions, were worked closely 
with a several federal law enforcement agencies (FBI, DEA, Customs, 
Secret Service, Postal Inspection Service, and the Marshal Service), 
with local law enforcement, the intelligence community and national 
security agencies, and in some cases with foreign law enforcement 
agencies.
    I have also had an opportunity to practice law in the private 
sector, initially with Wilmer, Cutler & Pickering where I learned from 
some of the country's leading attorneys, and later at Pillsbury, 
Madison & Sutro where I represented individual and corporate clients in 
a variety of civil and criminal matters. Most recently, I have served 
as Corporate Vice President and Deputy General Counsel at Honeywell, 
where for the past nearly five years I have had a broad range of legal 
and leadership responsibilities, including leading our litigation and 
regulatory group and our Integrity and Compliance effort. I have helped 
manage a diversified global business, and have resolved complex 
commercial, environmental, international trade, government contract, 
antitrust, intellectual property, and product liability issues.
    I bring no personal agenda to the Office of the Associate Attorney 
General except this: to seek to build the trust of the American people 
in the integrity and credibility of their institutions of justice; to 
work diligently to ensure that our people can live in a free society 
without fear of violence; to provide a level playing field for all our 
people to pursue their economic and personal ambitions; to remember 
that we must be good stewards of our planet for ourselves and future 
generations; to enforce aggressively the laws the Congress has enacted; 
and in all things to act with integrity and in the spirit of bringing 
justice to all our people.
    Throughout my career I have been blessed to have worked with many 
talented people from whom I have learned much. I understand that people 
of diverse backgrounds can see issues differently, and that we must 
work diligently to reach resolutions and solutions that are both fair 
and credible for all those effected. I appreciate that there is a 
sometimes underfined, yet tangible, ``public interest'' which infuses 
our processes and decisions; that private individuals and entities 
frequently have a healthy skepticism of government and sometimes 
believe the government misuses its power; and that prosecutorial 
authority should be exercised with restraint because of the impact it 
can have on people's lives, liberty, and reputations. But I also know 
that we must vigorously, but fairly, enforce the laws which the 
Congress has enacted for the benefit of all our people.
    Throughour my career I have been inspired by the words of Teddy 
Roosevelt when he said: ``It is not the critic who counts, not the man 
who points out how the strong man stumbles, or the doer of deeds could 
have done them better. The credit belongs to the man who is actually in 
the arena. . .'' And I have reflected often on the words of Edmund 
Burke which I have shared with young prosecutors: ``The only thing 
necessary for the triumph of evil is for good men and women to do 
nothing.'' While our nation faces great challenges ahead, the strength 
of our people and the courage of our leaders will ensure that we remain 
a free people. By working together in the arena, we can secure justice 
for all our people. I trust that with your cooperation and your 
confidence, I may contribute in some small way to the continued 
vitality of our democracy and the liberty of our people.
    Mr. Chairman, I am grateful for the opportunity to appear before 
this Committee today. I would like to thank the President and the 
Attorney General for their confidence in me. If confirmed, I would look 
forward to building a relationship of confidence and trust with this 
Committee as together we work to promote justice for all our people. I 
would be pleased to answer any questions that you may have.

[GRAPHIC] [TIFF OMITTED] 81139.029

[GRAPHIC] [TIFF OMITTED] 81139.030

[GRAPHIC] [TIFF OMITTED] 81139.031

[GRAPHIC] [TIFF OMITTED] 81139.032

[GRAPHIC] [TIFF OMITTED] 81139.033

[GRAPHIC] [TIFF OMITTED] 81139.034

[GRAPHIC] [TIFF OMITTED] 81139.035

[GRAPHIC] [TIFF OMITTED] 81139.036

[GRAPHIC] [TIFF OMITTED] 81139.037

[GRAPHIC] [TIFF OMITTED] 81139.038

[GRAPHIC] [TIFF OMITTED] 81139.039

[GRAPHIC] [TIFF OMITTED] 81139.040

[GRAPHIC] [TIFF OMITTED] 81139.041

[GRAPHIC] [TIFF OMITTED] 81139.042

[GRAPHIC] [TIFF OMITTED] 81139.043

[GRAPHIC] [TIFF OMITTED] 81139.044

[GRAPHIC] [TIFF OMITTED] 81139.045

[GRAPHIC] [TIFF OMITTED] 81139.046

[GRAPHIC] [TIFF OMITTED] 81139.047

[GRAPHIC] [TIFF OMITTED] 81139.048

[GRAPHIC] [TIFF OMITTED] 81139.049

[GRAPHIC] [TIFF OMITTED] 81139.050

[GRAPHIC] [TIFF OMITTED] 81139.051

[GRAPHIC] [TIFF OMITTED] 81139.052

[GRAPHIC] [TIFF OMITTED] 81139.053

[GRAPHIC] [TIFF OMITTED] 81139.054

[GRAPHIC] [TIFF OMITTED] 81139.055

[GRAPHIC] [TIFF OMITTED] 81139.056

[GRAPHIC] [TIFF OMITTED] 81139.057

[GRAPHIC] [TIFF OMITTED] 81139.058

[GRAPHIC] [TIFF OMITTED] 81139.059

[GRAPHIC] [TIFF OMITTED] 81139.060

[GRAPHIC] [TIFF OMITTED] 81139.061

[GRAPHIC] [TIFF OMITTED] 81139.062

[GRAPHIC] [TIFF OMITTED] 81139.063

[GRAPHIC] [TIFF OMITTED] 81139.064

[GRAPHIC] [TIFF OMITTED] 81139.065

[GRAPHIC] [TIFF OMITTED] 81139.066

[GRAPHIC] [TIFF OMITTED] 81139.067

[GRAPHIC] [TIFF OMITTED] 81139.068

[GRAPHIC] [TIFF OMITTED] 81139.069

[GRAPHIC] [TIFF OMITTED] 81139.070

[GRAPHIC] [TIFF OMITTED] 81139.071

[GRAPHIC] [TIFF OMITTED] 81139.072

[GRAPHIC] [TIFF OMITTED] 81139.073

    Senator Durbin. Well, thank you very much, Mr. Stephens. 
You have an extraordinary background that you bring to this 
position, but there is one part of it that is particularly 
apropos for questions, I think, this morning, and you have 
noted it in your opening statement.
    As United States Attorney for the District of Columbia, you 
were involved in the investigation of the bombing of Pan Am 103 
over Lockerbie, Scotland. You also led a number of terrorism 
prosecutions which involved violence against U.S. nationals 
overseas and here.
    Can you share with us any insight into those experiences as 
a prosecutor, and if you could also reflect on the challenges 
that these cases brought in comparison to other work you have 
done?
    I guess the third point, and more relevant to some earlier 
statements, is whether or not you feel that there are existing 
laws in the United States which should be reconsidered in light 
of the current challenge we face.
    Mr. Stephens. Thank you, Mr. Chairman. I appreciate your 
interest in that area, given the times we face. I should say 
while I participated in leading, these are investigations that 
really require, and I think the most important thing, the 
cooperation and coordination of good men and women in law 
enforcement across the globe.
    There is more to it than a homicide case or a fraud case, 
and I think the key ingredient both is to have resolve, is to 
have good intelligence, and by that I mean we needed to work 
frequently with the intelligence communities, both on our 
foreign intelligence as well as domestic intelligence; that you 
have and depend upon good cooperative relationships with 
international law enforcement agencies. And I think in cases 
that we are facing at the present time, that goes beyond the 
law enforcement, obviously, to the political and national 
leadership level.
    Do I think our laws are adequate? I confess I may have some 
thoughts on that. I have reflected some on that. I think we 
have in place some fundamental laws that can deal with those 
questions. I think the President has proposed and the Attorney 
General has proposed some changes to our laws which I am not 
fully apprised of, but I have a general understanding of those 
and I think those have been sent to the Congress, that would 
provide some modifications that may assist in international 
terrorism investigations.
    I say that we need the tools to do that job, but I also 
want to emphasize that it is important that we remember that we 
are a free society, that we want to preserve the rights of our 
own citizens, and that while we are acting aggressively that we 
don't essentially lose by giving up our own freedom to seek the 
accountability of others.
    These are difficult prosecutions, and I think frankly we 
want to look at them not only as prosecutions, but as foreign 
policy issues and national security issues and bring all those 
agencies together.
    Senator Durbin. I think you make the important point that 
we all have on our minds. We want to give our Government the 
tools to protect us, and yet we don't want to sacrifice those 
protections that have been part of America for every citizen 
from the beginning.
    Let me ask you, in your work with the Civil Rights 
Division, all of us are saddened and alarmed by some--
fortunately, they are very limited, but some evidence of 
retribution against Arab Americans and people of the Muslim 
faith.
    Could you for the record indicate your feelings on this and 
whether you think there are things that we should consider by 
way of legislation or otherwise to make certain that there is 
no discrimination against those who are not culpable for any of 
the wrongdoing?
    Mr. Stephens. Mr. Chairman, I think people of good faith 
share your concern in that area. The President, I think, has 
expressed his views very strongly, condemning the acts of 
violence against Arab Americans and Muslims in this country and 
elsewhere. The Attorney General has done so, and I clearly join 
that. I think it is frankly very sad and a very unfortunate 
statement when we see violence against our own people simply 
because of their race, their origin, or because they are people 
of color.
    The Civil Rights Division, as I understand it, has set up a 
very aggressive to coordinate the prosecution and investigation 
of these offenses. They have a working group that has been 
established. Unfortunately, there have been several dozen of 
these events around the United States. I think the laws are 
adequate. I think it takes resolve, and I think it will take 
cooperation, as well, with State and local government because 
many of these offenses, while they might be prosecutable under 
the civil rights laws, would also be prosecutable under State 
statutes, where frankly the penalties may be more effective.
    Senator Durbin. My last question relates to a 
responsibility which you will have that probably has gone 
unnoticed or not widely heralded until recent events, and it is 
the Office of State and Local Domestic Preparedness Support, 
responsible for handling the capability of State and local 
jurisdictions to prepare for and respond to incidents of 
domestic terrorism involving weapons of mass destruction.
    I just for the last several days--and I am sure my 
colleagues had similar experiences--spent the entire time going 
across the State of Illinois speaking to leaders in our 
communities who asked me as a Senator, what should we be doing 
to prepare ourselves and defend ourselves against the threat of 
terrorism? I came back really trying to search out sources of 
information to help them, and resources.
    Can you reflect on that particular responsibility which you 
would have in this position?
    Mr. Stephens. Mr. Chairman, I understand and appreciate 
your concern. It is an area both in terms of preparedness as 
well as dealing with victims of terrorism and their families, 
and much of that is handled under the Office of Justice 
Programs.
    I will say I don't have tremendous familiarity today with 
all those programs, how they are structured, but I do know that 
the Department has reached out to deal with it certainly on the 
victims side very substantially by providing assistance to 
victims of crime, victims of terrorism; that through the peace 
officers benefits that they are providing a streamlined process 
that those are made available promptly to the families of 
firefighters and police officers who have been killed or 
injured in the line of duty.
    I know that they are working with the State and local 
governments to assist and providing support. And I think let me 
say you have my assurance that I, if confirmed, would ensure 
that we are working diligently to ensure that we are prepared 
from a domestic point of view to do all we can to deal with the 
incidence of violence against our citizens.
    Senator Durbin. Thank you, Mr. Stephens.
    Mr. Stephens. Thank you, sir.
    Senator Durbin. Senator Hatch?
    Senator Hatch. Mr. Stephens, you are abundantly familiar 
with the Justice Department. You have served there in four 
different administrations, and you bring an especially 
experienced perspective to the Department and perhaps a 
perspective of positions ranging from line prosecutor to U.S. 
Attorney.
    Now, do you see any recurring issues that the Department of 
Justice has faced, and if so, how do you anticipate dealing 
with some of these recurrent issues?
    Mr. Stephens. Senator Hatch, thank you for the question. As 
far as recurring issues, let me say as I reflect on that I 
would say that the most significant sense of recurring issue is 
that the Department of Justice and how it does its business has 
a sense of core values and a sense of continuity.
    While administrations come and administrations go and there 
are perhaps glosses of policy that change, the core of how the 
Department litigates, how it manages its cases, how it moves 
forward--it has a core responsibility to Americans and American 
society.
    I would come back to what I described as not necessarily my 
agenda, but the principles that guide me as I think about the 
possibility of serving in this position, and I see that as part 
of the continuity of what the role of the Department is; that 
is, to ensure the integrity of our institutions of Government; 
that is, to protect the safety of our citizens; that is, to 
ensure that there is a level playing field so that businesses 
and individuals can compete personally, fairly; and that is, to 
aggressively enforce the acts and laws that Congress has 
passed. And, finally, the Department of Justice should in all 
things act with integrity and recognize that this is the 
Department of Justice not for this group of people or that 
group of people, but that it is really to dispense justice for 
all the people.
    I would say, looking at the Department and how it has 
changed from the 1980s when I had an opportunity to serve at 
Main Justice to now, we have seen, I think, an expansion of the 
global reach of law enforcement. And I think those initiatives 
that were undertaken to deal with terrorism, to deal with 
extraterritoriality or the application of our laws really are 
now in full fruition as we look at treaties, at cooperation 
agreements, at the reach of U.S. law, particularly in these 
days when we are fighting an international terrorism enemy.
    So I think there is a sense of continuity about justice and 
there are some guiding principles that guide each of us. I hope 
that is responsive to your question because this is a great 
institution. It has tremendous responsibility to maintain the 
sense of confidence and trust of people in Government, and I 
hope I could contribute in some small way to ensuring that for 
the future.
    Senator Hatch. Thank you so much. I am going to support 
you, as you know, and feel very deeply about your nomination. I 
think you are just the right person for the job and you will do 
a great job while there, and I hope we can get you through as 
quickly as possible. I want to thank your wife and family 
again, and our future Director of the U.S. Marshals Service's 
wife and family for your willingness to serve. We just really 
appreciate you.
    Jay, I have known you a long time. You are a good man and 
we will do everything we can to get you through.
    Mr. Stephens. Thank you, sir.
    Senator Hatch. Thank you.
    Senator Durbin. Thank you, Senator Hatch.
    Senator Specter?
    Senator Specter. Thank you, Mr. Chairman.
    Mr. Stephens, I concur with Senator Hatch on your 
extraordinary qualifications. We thank you for coming back to 
Government. You have been in it in a long time, in a lot of 
very important positions, and I think you are in an excellent 
spot to do a job as the number three man in the Department of 
Justice.
    For the record, I would like to cover just a couple of 
items which you and I have discussed earlier this morning 
because I wanted to review in some detail some of the concerns 
I had--my expression of interest, in my own view, of being 
helpful to the Department of Justice. I know this committee 
wants to be helpful, as does the entire Senate and Congress, 
not only for the immediate, major problems but in the long 
term.
    For the record, I want to talk to you for a moment or two 
about congressional oversight on the Department of Justice, 
which I think is a point which has not worked well in the past.
    As expressed to you earlier this morning, I am concerned, 
for example, about the ability of this committee to deal with 
oversight on what the Department of Justice did on the 
indictments arising from the destruction of Khobar Towers back 
in 1996.
    I chaired the Intelligence Committee at that time and have 
some greater familiarity with that event than most members do 
on any individual event. But when the indictment was returned, 
Iran was identified as a conspirator, but no Iranians were 
indicted.
    As a very basic matter, you can't hold a country 
responsible as a conspirator, or any principal, without having 
some conspiratorial acts of individuals who would be Iranians. 
I have already made some inquiries at the Department of Justice 
and have been told something about the quality of evidence, and 
that is a matter which I think needs to be pursued.
    Did the Department of Justice pull its punches on that 
indictment? I am not saying it did, but that question obviously 
arises when Iran is named as a conspirator, but there are no 
individuals charged in the indictment. The new Iranian 
administration with President Katamai is one which I would like 
to see us worth with and find a way to extend an olive branch, 
but if some of the old Iranian hard-liners were responsible for 
the Khobar Towers destruction, I think we ought to be very 
tough about it.
    Then we have the question about the indictments which have 
been outstanding against Osama Bin Laden for some time, for 
years, arising from the killing of Americans in Mogadishu in 
1993 and from the embassies in 1998. This committee, I think, 
ought to become very, very deeply involved in finding out what 
action the Department of Justice took to serve those warrants.
    That is a subject matter where this committee has been very 
active in the past on the legislation on the Terrorist 
Prosecution Act of 1986, which for the first time gave 
extraterritorial jurisdiction to the United States, and for 
hearings which were held in this room where the Attorney 
General was questioned; William Webster, when he was head of 
the CIA or the FBI, or both; Abe Soffir, when he was counsel to 
the State Department, to make demands on countries which 
harbored those under indictment and, if no action was taken, 
for having them forthcoming to consider our rights as a matter 
of self-defense to go into foreign countries and to arrest 
these individuals.
    My question to you, Mr. Stephens, with that perhaps too 
lengthy introduction, is are you prepared to recognize the 
Federal law which gives the Congress the authority to get into 
pending investigations and pending prosecutions, and to find 
out what is going on in the Department of Justice, and will you 
cooperate with the constitutional responsibility and authority 
of this committee to conduct such oversight?
    Mr. Stephens. Senator Specter, I understand and I hear your 
deeply-felt views regarding this. I also will say I concur that 
I think the Constitution clearly gives the Senate and this 
committee oversight responsibilities. In order to do your 
function in the legislative branch, you need to have the kind 
of information to make the kind of judgments that you need to 
ensure that our laws are enacted properly and that they are 
being enforced properly.
    As you know from our discussion today, I also expressed a 
sense that the Department and the executive branch has a 
responsibility to enforce the laws, to do that fairly, and that 
in doing that we should try, in a mechanism of comity, to share 
with the committee, with that Congress, that information that 
we can, and that there are mechanisms available to do that.
    I hope, for example, that the briefings which this 
committee and others have received with regard to the current 
investigation involving the terrorist acts of last week 
demonstrate some of those mechanisms that can be available.
    So you have my commitment to work with you to provide the 
kind of information you need. I don't think today I am in a 
position to say I would say you can have any file and every 
file. Frankly, I don't know how the Attorney General would view 
that.
    But my sense is we should be able to get you the kind of 
information you need to do your job so you can make the 
judgments, and if the Department has failed to act 
appropriately you can ensure that you can bring to bear your 
responsibility and judgment to encourage the Department to act 
appropriately, whether it is one of the terrorist prosecutions 
or something else.
    So you have my commitment to work with you to do the 
appropriate means that I would see or that the Department sees 
to get you the kind of information you need.
    Senator Specter. Okay, thank you very much, Mr. Stephens. 
The red light went on in the middle of your answer, not my 
question, and I will respect the red light. There is no doubt 
about your confirmation. You bring superb credentials to the 
Federal Government, but I wanted to have a little dialogue with 
you because I will be calling you from time to time to talk 
about your commitment and to talk about oversight and how we 
work it out.
    I appreciate the fact that it is not easy and it is not 
automatic, but there has been too little regard by the 
Department of Justice in both Democratic administrations and 
Republican administrations, and I think that we can improve law 
enforcement markedly with that oversight being conducted with 
more information coming from the Department of Justice.
    Thank you, and thank you, Mr. Chairman.
    Mr. Stephens. Thank you, Senator. If confirmed, I look 
forward to working with you on that.
    Senator Durbin. Thank you, Senator Specter.
    I just have a few more questions, and I will be very brief.
    Your responsibilities are so broad with this appointment 
that they cover a lot of areas that we haven't even touched on, 
and I would like to just touch a few of them, if I could, as 
part of the record here.
    In many States, the level of funding available to counsel 
for indigent defendants is woefully inadequate and there may be 
caps on the total amount available per case, resulting in very 
low levels of compensation.
    As Associate Attorney General with oversight over the 
Office of Justice Programs, you would have an opportunity to 
set the tone on this issue at the Federal level and to support 
State efforts to improve individual systems. What is your 
feeling about the compensation of attorneys for indigent 
defense in our country?
    Mr. Stephens. Mr. Chairman, I appreciate your question. I 
will say my most immediate experience with that was probably 
when I served as an Assistant United States Attorney, and I 
know there were very many talented attorneys defending the 
accused here in the District of Columbia who frankly were not 
very well compensated.
    I think it is important that they have fair compensation so 
that we can bring talented resources to bear to defend those 
who are accused because the Government should be put to the 
test. I mean, we are in part taking the liberty, and at times 
perhaps the life of someone who is accused and later convicted, 
and they should have the kind of defense necessary to ensure 
their rights are protected.
    So I will look at this. I am not specifically familiar with 
how the mechanism works under OJP, but I would be delighted to 
take a look at that.
    Senator Durbin. What has been your experience and what is 
your position when it comes to the whole question of grand jury 
secrecy, the confidentiality in the process, and the 
relationship of a prosecutor with the press?
    Mr. Stephens. My experience with regard to 6(e) is that 
6(e) was the grand jury--it is a grand jury rule--is that it is 
important in the course of the investigation to maintain the 
confidentiality of the proceedings within the grand jury, what 
the grand jury is thinking, what its deliberations are, what 
documents it has subpoenaed, so that potential subjects of an 
inquiry do not know where that investigation is going so that 
perhaps they can move more quickly and block avenues of 
investigation.
    I do think, and my own personal view is that 6(e) is a more 
narrow rule than sometimes is frequently referred to in the 
press by commentators. I think when you see 6(e) issues 
litigated through the courts, the courts actually take a pretty 
narrow view of what constitutes 6(e). But I think it is 
important that the case be tried in the courtroom, that the 
grand jury materials stay in the grand jury and that it not be 
tried publicly.
    Senator Durbin. There is another area of responsibility 
that you will have and it relates to the pending litigation 
against the tobacco companies by the Federal Government. We had 
a hearing just two weeks with Acting Director Schiffer, who 
talked about the commitment of the Department of Justice to 
this lawsuit and the fact that the Department needed about $44 
million to support the litigation in the next fiscal year.
    I have since been apprised of an order issued by the court 
which I would like to call to your attention and I hope you 
will get a chance to take a look at. It was an order entered on 
September 10th, a week ago Monday, order number 83 in United 
States of America v. Philip Morris, et al.
    The judge in that case, Judge Kessler, was very critical of 
the Government's tactics in the case and particularly accused 
the Government of wasting everyone's time with some of the 
motions that had been filed. Now, this pre-dates anything that 
you might do in the Department, but the judge went on to say 
that if the Government misses its deadline for discovery, the 
Government will bear the responsibility for jeopardizing the 
July 2003 trial date. And then the judges says, ``That is not 
going to be allowed to happen.''
    I raise that issue and bring this to your attention because 
many of us feel that if we are going to be successful in this 
lawsuit for the taxpayers of this country, we must diligently 
prosecute it, and that all of the attorneys representing the 
United States have to do an extraordinary job in a very 
challenging lawsuit.
    I would hope that as you consider your responsibilities--I 
am virtually certain you will be confirmed very quickly--that 
you will take a look at order number 83 and call in the 
attorneys for this lawsuit and ask for them to give you a 
briefing.
    Have you had any involvement in tobacco lawsuits in your 
private practice?
    Mr. Stephens. No, I have not, Mr. Chairman.
    Senator Durbin. Well, I hope you will follow my 
recommedation and I hope that you will make sure that the 
attorneys do a very good job for all of us.
    Mr. Stephens. Well, thank you, Mr. Chairman. I understand 
your deep interest in this area. You should know I have not had 
any involvement in tobacco litigation. I am not a smoker. I 
have tried to encourage, and I believe have successfully 
encouraged my children not to be smokers.
    And I can say I had the privilege of appearing before Judge 
Kessler for almost a year as an Assistant United States 
Attorney and I know she says what she means when she says it. 
So you can be sure that I will take a look at this to ensure 
that we have funding in place and that the issues be adjudged 
on the merits. That is all I can commit to you. I don't know 
what the merits are, but it should be up or down on the merits 
and handled aggressively if the Department is going forward 
with it.
    Senator Durbin. Thanks very much, Mr. Stephens.
    This meeting of the Judiciary Committee will stand 
adjourned.
    [Whereupon, at 11:42 a.m., the committee was adjourned.]

                                   - 

</pre></body></html>
